No. ___________________________
IN THE SUPREME COURT OF THE UNITED STATES
OCTOBER TERM 2020
SAMUEL EARL SMITH
Petitioner,
v.
UNITED STATES OF AMERICA,
Respondent

MOTION FOR LEAVE TO PROCEED IN FORMA PAUPERIS
FOR FILING PETITION FOR WRIT OF CERTIORARI
Petitioner Samuel Earl Smith asks leave to proceed in this Court in forma
pauperis, pursuant to Rule 39 of the Rules of this Court. Petitioner has proceeded in
forma pauperis in both the United States District Court and the Fifth Circuit Court of
Appeals. The undersigned counsel has been appointed for Petitioner under the
Criminal Justice Act of 1964 as counsel in the Fifth Circuit Court of Appeals.
Petitioner’s Petition for Writ of Certiorari is being filed contemporaneously with
this Motion.
Respectfully submitted,
LAW OFFICE OF STAN SCHWIEGER

/s/ Stan Schwieger
Stan Schwieger
600 Austin Avenue, Suite 12
Waco, Texas 76701
(254) 752-5678
(254) 752-7792 -- Facsimile
State Bar No. 17880500
ATTORNEY FOR PETITIONER

No. ___________________________

IN THE SUPREME COURT OF THE UNITED STATES
OCTOBER TERM 2020
SAMUEL EARL SMITH
Petitioner,
V.
UNITED STATES OF AMERICA,
Respondent
PROOF OF SERVICE
I, Stanley L. Schwieger, do swear or declare that on May 25, 2021 as required by
Supreme Court Rule 29, I have served the enclosed Motion for Leave to Proceed in Forma
Pauperis and Petition for a Writ of Certiorari on each party to the above proceeding or that
party’s counsel, and on every other person required to be served, by depositing an envelope
containing the above documents in the United States mail properly addressed to each of
them and with first-class postage prepaid, or by delivery to a third-party commercial
carrier for delivery within three calendar days.
One copy of the Petition for Writ of Certiorari and one copy of the Motion to Proceed
in Forma Pauperis in the above-entitled case were mailed, first-class postage prepaid to
Mr. Joseph H. Gay, Jr., Assistant United States Attorney, Suite 600, 601 N. W. Loop 410,
San Antonio, Texas 78216 and to the Honorable Solicitor General of the United States,
Department of Justice, Washington, D.C. 20530. An electronic version is also being
transmitted to all parties at the time of fling or reasonably contemporaneous with the
same.
I declare under penalty of perjury that the foregoing is true and correct.
Executed on May 25, 2021.
/s/ Stan Schwieger
Stan Schwieger
600 Austin Avenue, Suite 12
Waco, Texas 76701
(254) 752-5678
(254) 752-7792 – Facsimile
State Bar No. 17880500
ATTORNEY FOR PETITIONER

